No. 20–
–7373

IN THE

SUPREME COURT OF THE UNITED STATES

CHRISTOPHER MATHEW PAYNE,
PETITIONER,
-vsTHE STATE OF ARIZONA,
RESPONDENTS.

CERTIFICATE OF COMPLIANCE
CAPITAL CASE
BRIEF IN OPPOSITION
MARK BRNOVICH
ATTORNEY GENERAL
BRUNN (“BEAU”) W. ROYSDEN III
SOLICITOR GENERAL
LACEY STOVER GARD
DEPUTY SOLICITOR GENERAL/CHIEF OF
CAPITAL LITIGATION
LAURA P. CHIASSON
ASSISTANT ATTORNEY GENERAL
CAPITAL LITIGATION SECTION
(COUNSEL OF RECORD)
400 WEST CONGRESS, S-215
TUCSON, ARIZONA 85701
LAURA.CHIASSON@AZAG.GOV
CLDOCKET@AZAG.GOV
TELEPHONE: (520) 628-6520
ATTORNEYS FOR RESPONDENT

CERTIFICATE OF COMPLIANCE
Undersigned counsel certifies that this Brief in Opposition is double spaced,
uses a 12 point proportionately-spaced Century typeface, and contains 5,853 words.
DATED this 7th day of April, 2021
/s/ Laura P. Chiasson

Laura P. Chiasson
Assistant Attorney General
Capital Litigation Section
(Counsel of Record

RC63C4YZ0DUWXS

2

